OIG Investigative Reports, Archbald PA 02/21/2012 - Fred R. Rosetti Charged with Defrauding Northeastern Intermediate Unit #19
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigative Report
THE UNITED STATES ATTORNEY'S OFFICE
MIDDLE District of Pennslyvania
NEWS
Fred R. Rosetti Charged with Defrauding Northeastern Intermediate Unit #19
FOR IMMEDIATE RELEASE
February 21, 2012
The United States Attorney's Office for the Middle District of Pennsylvania announced today that a Grand Jury in Scranton has returned an   indictment today charging the former Executive Director of the Northeastern Intermediate Unit #19 with multiple counts of fraud, theft, and money   laundering.
According to United States Attorney Peter J. Smith, the indictment alleges that between July 1, 1998 through June 30, 2010, Fred R. Rosetti, age   63, Archbald, engaged in a scheme to defraud the Northeastern Intermediate Unit   #19 (NEIU). The indictment alleges that during his tenure as Executive Director,   Rosetti fraudulently, improperly, and unlawfully converted funds and property of the NEIU for his personal benefit and for the personal benefit of his family.
It is alleged that Rosetti directed and ordered NEIU employees to   perform home maintenance services at his personal residence, personal   secretarial services, personal shopping for Rosetti and his family, and to   assist in the planning and preparation of Rosetti family events.
The indictment alleges that Rosetti created false travel vouchers and   directed and ordered NEIU employees to create false travel vouchers for the   benefit of Rosetti. Rosetti is also charged with intentionally failing to   document his time-off in the form of used vacation, sick and personal days which  enabled him to include all of the undocumented time-off in an accumulation of   days for which he received a cash payout at the time of his retirement. The   financial loss to the NEIU is alleged to be material and substantial. The   indictment alleges that the government seeks forfeiture of $240,000 plus the   contents of two bank accounts and a property in Archbald, PA.
Under the applicable U.S. Sentencing Guidelines, if convicted of the   most serious charges Rosetti faces 10 years in prison and fines in the amount of   $250,000.
Rosetti served as the Executive Director of the NEIU #19 from July 1,   1998 through June 30, 2010. The NEIU #19 is part of the public school system of   the Commonwealth of Pennsylvania and provides statutorily-mandated educational   services, such as the delivery of early intervention programs and services,  special education programs, learning support, and life skills, to school   districts in Lackawanna, Wayne, Wyoming, Pike, and Susquehanna Counties that   cannot provide these specialized services themselves. NEIU #19 receives federal   as well as state funds. The administrative offices of the NEIU #19 are located   in Archbald, Pennsylvania.
The prosecution is the result of a joint   investigation by the Federal Bureau of Investigation (FBI), the United States   Department of Education - Office of Inspector General, and the Pennsylvania   Department of the Auditor General - Office of Special Investigations.   Prosecution is assigned to Assistant United States Attorney Michelle   Olshefski.
U.S. Attorney Smith said that the investigators and his office are   continuing to look into allegations of fraud and corruption in school districts   and areas of the education-related activities in the Middle District of   Pennsylvania that receive federal funds. Anyone with information should contact   the FBI at 570-344-2404.
****
Top
Printable view
Last Modified: 02/23/2012
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov